<html>
<title> - MYERS, SCARLETT, AND RALEY NOMINATIONS</title>
<body><pre>[Senate Hearing 107-121]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-121

                 MYERS, SCARLETT, AND RALEY NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

 THE NOMINATIONS OF WILLIAM GERRY MYERS III, NOMINEE TO BE SOLICITOR, 
   DEPARTMENT OF THE INTERIOR; PATRICIA LYNN SCARLETT, NOMINEE TO BE 
 ASSISTANT SECRETARY FOR POLICY, MANAGEMENT, AND BUDGET, DEPARTMENT OF 
   THE INTERIOR; AND BENNETT WILLIAM RALEY, NOMINEE TO BE ASSISTANT 
            SECRETARY OF THE INTERIOR FOR WATER AND SCIENCE

                               __________

                             JUNE 20, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                   U.S. GOVERNMENT PRINTING OFFICE
75-010                     WASHINGTON : 2001

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         JIM BUNNING, Kentucky
                                     PETER G. FITZGERALD, Illinois
                                     CONRAD BURNS, Montana
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     2
Capps, Hon. Lois, U.S. Representative from California............     4
Craig, Hon. Larry E., U.S. Senator from Idaho....................     4
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    24
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1
Myers, William Gerry, III, Nominee to be Solicitor, Department of 
  the Interior...................................................     9
Raley, Bennett William, Nominee to be Assistant Secretary of the 
  Interior for Water and Science.................................    12
Royce, Hon. Edward R., U.S. Representative from California.......     5
Scarlett, P. Lynn, Nominee to be Assistant Secretary for Policy, 
  Management, and Budget, Department of the Interior.............     7

                                APPENDIX

Responses to additional questions................................    31

 
                 MYERS, SCARLETT, AND RALEY NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 20, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. The committee will come to order. The hearing 
this morning is on President Bush's nomination of three 
individuals, Patricia Lynn Scarlett to be the Assistant 
Secretary of the Interior for Policy Management and Budget, 
William Gerry Myers III to be the Solicitor of the Department 
of the Interior, and Bennett William Raley to be the Assistant 
Secretary of the Interior for Water and Science.
    We will start, without objection, by including in the 
record the testimony, written testimony of each witness. The 
committee questionnaire, and the financial disclosure 
statements will be retained in committee files.
    Let me defer to Senator Murkowski for any opening statement 
he wanted to make, and then we have some people here to 
introduce the nominees before we actually hear from them.
    Senator Murkowski.

 STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Bingaman. 
We certainly have some well-qualified nominees before us, and I 
won't go into their background at this time, because I think 
those that are introducing them will do that. I want to thank 
you for holding the hearing this morning. I think it is 
important we deal with the nominations in a timely manner, and 
I appreciate the way you have agreed to move on these 
nominations.
    I would like to call your attention to a situation where we 
have been having difficulty with Steven Griles as Deputy 
Secretary of the Department of the Interior. Holds have been 
put in that particular nomination, and I think it is unfair for 
the Secretary to be in a position where she only has one 
confirmed person at the Department of the Interior, and that is 
herself, so I would encourage all of you who might be able to 
help us move that nomination. I think what we hoped to get was 
a time agreement for some debate on it, and so with that, I 
would yield to the folks who are going to introduce our 
witnesses today.
    The Chairman. Okay. Thank you very much. We have two 
Senators who are here to introduce Bennett Raley, Senator 
Allard and Senator Campbell. Senator Campbell, of course, is a 
Member of this committee. Let me call on Senator Campbell for 
his statement first, then on Senator Allard.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
                            COLORADO

    Senator Campbell. Thank you, Mr. Chairman.
    I certainly am proud to be able to introduce Bennett Raley 
from Colorado, who President Bush has nominated to be Assistant 
Secretary of the Interior for Water and Science. Bennett is not 
a newcomer to Washington, Mr. Chairman, having worked for our 
former colleague, Hank Brown. I know that he knows many 
staffers here, and certainly some of the committee members, 
personally.
    I believe Bennett Raley will complement the team in place, 
and is the right person for the job. His experience will help 
accelerate and improve work at the Department of the Interior, 
especially at the Bureau of Reclamation, and across the Nation 
as well.
    In my home State of Colorado, where water is literally life 
itself, Bennett already has worked for many years in the water 
field, and has extensive knowledge on these issues, which are 
all covered in his biography, which has been provided for the 
committee members, and so I will not go through them 
completely, but he has demonstrated that he has the knowledge, 
he has the professional credentials, and the proven ability to 
build consensus when addressing conflicts needed for someone in 
the position for which he has been nominated. Our Nation's 
water policy, especially in the area of the West, is essential, 
and required an accomplished advocate like Bennett at the helm 
to guide it.
    Bennett also has been a very, very strong voice for 
promoting and enhancing our water management policy. He has an 
institutional knowledge, as well as the extensive experience in 
water issues which is important to many of our western members 
here on this committee.
    The growing populations and changing cultural values are 
placing increased demands with each passing year on our 
existing and limited water supplies, resulting in conflicts in 
water use throughout the country. Recent conflicts are 
particularly apparent in the West, where agriculture needs for 
water are often in dire and direct conflict with urban needs, 
and others, like the demand for water for endangered species 
and recreation.
    In the arid West, naturally scarce water supplies and 
growing urban populations have increased Federal-State 
tensions, because the States historically have had primacy in 
interstate water allocations. Debate over Western water issues 
is not unlike the current energy debates that center in and 
around the area of California, and how best to plan for the 
future, and how to manage. Managing them is extremely 
important. I believe Bennett will do a very, very fine job, and 
I wholeheartedly endorse his nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Allard, did you 
have a statement also?

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Yes, Mr. Chairman, I do. First of all, I 
want to thank you for giving me an opportunity to introduce Mr. 
Raley and an opportunity to join my colleague. I would second 
all of his comments, and would just elaborate just a few 
minutes more to introduce my fellow Coloradan, Bennett Raley, 
who is being considered for the position of Assistant Secretary 
for Water and Science at the Department of the Interior.
    As you know, Bennett has outstanding qualifications to 
serve as Assistant Secretary for Water and Science. He 
currently practices law in Denver relating to water 
development, mining, grazing, and recreation on Federal and 
private lands, and Mr. Chairman, as you probably are aware, he 
has a very extensive background representing water interests, 
in particular the Northern Colorado Water Conservancy District, 
and the development and implementation of the Endangered 
Species Recovery programs in the Upper Colorado and Platte 
River Basins, and these are extremely tough issues.
    In this past year, Mr. Raley was helpful in drafting 
legislation, now Public Law 106-392, which authorized cost-
share funding for the Upper Colorado River endangered fish 
recovery program, and many members on this committee in the 
West helped work on that piece of legislation.
    Mr. Raley also serves as a Special Assistant Attorney 
General for the State of New Mexico Interstate Stream 
Commission in Federal court relating to the implementation of 
the Endangered Species Act and the Rio Grande and Pecos Rivers.
    In addition to Bennett's private practice experience, he 
has served as staff counsel to my predecessor, who most of you 
know, U.S. Senator Hank Brown, and was a cochair of the Federal 
Water Rights Task Force established pursuant to the 1996 
Freedom to Farm Act. His strong background in Western law will 
prove to be immensely useful at the Department in this 
capacity.
    During my tenure in Congress, I found Bennett has been most 
helpful. He has been a great resource to me and my staff on 
water law issues, and I think Senator Campbell has found him 
equally helpful. We have utilized his expert analysis during 
our many discussions with Federal land management agencies, 
particularly as they apply to our water law that we have in the 
Western part of the United States.
    I strongly urge the committee to give Bennett Raley a 
favorable recommendation for Assistant Secretary for Water and 
Science, and I thank you for your serious consideration on this 
most important matter.
    The Chairman. Thank you very much for that statement. I am 
advised that Senator Craig wanted to make a short statement in 
support of William Myers for Solicitor of the Department of the 
Interior.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much. Let me 
introduce to the committee Bill Myers, who many of you might 
have begun to know as he served with Senator Al Simpson as a 
legislative counsel to him for a good number of years before he 
moved to the Department of Justice, and then to the Department 
of the Interior, or Energy.
    I first got to know Bill when he was working as the 
executive director for the Public Lands Council for the 
National Cattlemen, and for other organizations who came 
together on public lands issues. He now resides in Boise, 
Idaho, as a member of a law firm there, and of course I have 
worked with Bill extensively over the years on public lands 
issues. He brings a talent that I think is important to us at 
the Department of the Interior, because of his vast knowledge 
and experience, also his energy, and a balance that I think he 
recognizes. Public lands must be administered for all interests 
that this country seek to apply to them.
    So I highly recommend him to the committee. I think he will 
serve us well and, mostly importantly, he will serve this 
administration and our Secretary of the Interior very well.
    Thank you.
    The Chairman. Thank you very much.
    Senator Thomas, did you also wish to make a statement of 
introduction?
    Senator Thomas. Thank you, Mr. Chairman. I simply wanted to 
join the Senator from Idaho. Bill Myers practiced law in 
Wyoming, working for Al Simpson, my predecessor, and certainly 
I just want to join in recommending him to the members of the 
committee.
    The Chairman. Thank you.
    We also have Representative Capps from California here to 
introduce another of the nominees, Lynn Scarlett. Why don't you 
go ahead, Representative Capps.

    STATEMENT OF HON. LOIS CAPPS, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, and members of this 
committee. It is an honor to be here and appear before you 
today, and I am very pleased to introduce to the committee Lynn 
Scarlett, who is a constituent of my congressional district.
    Lynn Scarlett is President Bush's nominee to be Assistant 
Secretary for Policy , Management, and Budget at the Department 
of the Interior. As you all know, this important position has a 
wide-ranging portfolio of duties that encompasses all aspects 
of the Department's mission. Clearly, the person appointed to 
this job must be someone with the intellectual heft to deal 
with complicated matters of both policy and management, and I 
believe any position at this level of Government requires an 
unwavering dedication to serving the American people.
    I met with Lynn soon after her nomination was announced. I 
was impressed with both her intellect and her commitment to 
public service, and I believe the committee will be well-
served. She is a 30-year resident of Santa Barbara County, 
California, and obtained her bachelor's and master's degrees in 
political science, completed her Ph.D. coursework, and was an 
instructor of public administration at the University of 
California in Santa Barbara.
    She is a member of the dean's Advisory Council of UCSB's 
Wren School of Environmental Science and Management. She is 
also a long-time birder, and member of the local chapter of the 
Audubon Society, and as you can tell from her biography she is 
a well-published writer and researcher on environmental issues, 
and has served in a number of positions in private and 
government-organized projects on these matters.
    Mr. Chairman, I believe the employees at the Department of 
the Interior had a special charge. Interior is responsible for 
the preservation of some of the most magnificent natural 
resources in this country.
    For example, in my district, which is Lynn's home area as 
well, is the 250,000-acre Channel Islands National Park. It 
contains a stunning array of natural and cultural resources, 
from the tiniest plankton to the blue whale. Some of the plants 
and animals in this park are found nowhere else in the world. 
Some of the cultural artifacts date back 10,000 years, and all 
this is present just miles from the densely packed Southern 
California coast.
    The Department of the Interior can and, I believe, must 
ensure Channel Islands and other such treasures are just as 
beautiful and vibrant when my grandchildren and all of our 
children's grandchildren are senior citizens, so I hope and 
trust that new appointees like Lynn Scarlett will ensure that 
this special charge to hold national treasures in trust for 
future generations is carried out with determination and 
diligence.
    Again, Mr. Chairman, and members of this committee, thank 
you for this honor to appear before you today, and to introduce 
the nominee to be the Under Secretary of the Department of the 
Interior.
    The Chairman. Thank you for your statement. Thanks for 
coming to the committee today.
    We also have a written statement that has been prepared by 
Representative Edward Royce that I will introduce into the 
record at this time in support of the nomination of Lynn 
Scarlett.
    [The prepared statement of Mr. Royce follows:]

    Prepared Statement of Hon. Edward R. Royce, U.S. Representative 
                            From California

    Chairman Bingaman and members of the committee, I am pleased to 
take this opportunity to support Lynn Scarlett's nomination for 
Assistant Secretary for Policy, Management, and Budget in the 
Department of the Interior. I have known and worked with Lynn for over 
15 years and believe she will be a valuable addition to the 
Administration.
    Lynn's record of commitment to sound environmental policy makes her 
more than qualified to meet the challenges of this position. Since 
1985, Lynn, has specialized in environmental policy at the Los Angeles-
based Reason Foundation, eventually being promoted to president and CEO 
of the organization. Her work has focused on finding areas of 
cooperation between government, environmental groups and industry, and 
developing innovative partnerships with the goal of protecting and 
conserving our environment.
    As executive director of Reason Public Policy Institute, the 
foundation's think tank division, Lynn has published extensively on 
land use management, recycling, and innovative environmental practices, 
and has on numerous occasions advised federal, state, and local 
legislative and regulatory bodies on pending environmental proposals. 
Her practical experience includes working with the Environmental 
Protection Agency to help develop a ``full-cost accounting'' workbook 
for solid waste managers. Lynn's work at the think tank has proven to 
be a veritable clearinghouse for state regulators and legislators on 
environmental programs for land, air, water, waste, and agriculture 
that use incentives, place-based decision-making, and performance 
measures.
    Lynn has demonstrated superior administrative abilities and 
extensive knowledge about the challenges facing our nation's public 
lands. She garners widespread support and respect from many individuals 
nationwide. I have no doubt that Lynn Scarlett will bring an 
experienced and well-tested approach to the Department of the Interior.
    Thank you for your consideration of my views.

    The Chairman. Let me dismiss the two of you and ask the 
nominees to come up to the witness table, and we will 
administer the oath to them.
    Could each of you stand? The committee rules require that 
all nominees be sworn in connection with their testimony. If 
each of you would raise your right hand, please. Do you 
solemnly swear the testimony you are about to give to the 
Senate Committee on Energy and Natural Resources shall be the 
truth, the whole truth, and nothing but the truth?
    Ms. Scarlett. I do.
    Mr. Myers. I do.
    Mr. Raley. I do.
    The Chairman. Please be seated. Before you begin your 
statements, I am to ask three questions that we address to each 
nominee that comes before this committee. Let me ask the 
question and then I will ask each of you to respond to each of 
the questions. The first question, will you be available to 
appear before this committee and other congressional committees 
to represent departmental positions and respond to issues of 
concern to the Congress?
    Ms. Scarlett. I will.
    Mr. Myers. I will.
    Mr. Raley. Yes, sir.
    The Chairman. The second question, are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Ms. Scarlett.
    Ms. Scarlett. Yes, Mr. Chairman. My investments, personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors of the Federal 
Government. I have taken appropriate action to avoid any 
conflicts. There are no conflicts of interests or appearances 
thereto, to my knowledge.
    The Chairman. Mr. Myers.
    Mr. Myers. I know of no actual or apparent conflicts.
    The Chairman. Mr. Raley.
    Mr. Raley. Mr. Chairman, my investments, personal holdings 
and other interests have, as with Ms. Scarlett, been reviewed 
by myself and with counselors within the Federal Government. I 
have taken appropriate action, and I know of no actual or 
apparent conflicts.
    The Chairman. Okay. The final question, are you involved, 
or do you have any assets held in a blind trust?
    Ms. Scarlett. No.
    Mr. Myers. No, Mr. Chairman.
    Mr. Raley. No.
    The Chairman. Well, thank you all very much. At this point, 
let me invite each of you to introduce any family members that 
you have in the audience with you. Ms. Scarlett.
    Ms. Scarlett. I have brought a whole retinue, Mr. Chairman. 
My husband, Jim Trotter, my daughter, Rachel, my mother, 
Virginia Scarlett, my sister, and our exchange student from 
Germany.
    The Chairman. Thank you very much. Let's give them a hand.
    [Applause.]
    The Chairman. Mr. Myers, did you have anyone in the 
audience you wish to introduce?
    Mr. Myers. No, Mr. Chairman. Events conspired against my 
family's ability to be here from Idaho today, so in their 
absence I would introduce to you my wife, Sue, and my two 
daughters, Kate and Molly, but they could not be here today.
    The Chairman. We look forward to meeting them.
    Mr. Raley, did you have members you wish to introduce?
    Mr. Raley. Yes, sir. I would like to introduce my wife 
Barbara, and my two daughters, Sarah and Janna.
    The Chairman. We welcome them. Let's give them a hand.
    [Applause.]
    The Chairman. At this point, let me invite the nominees to 
make any opening statement they like. Ms. Scarlett, why don't 
you start, and make your statement, and we will ask for each of 
the others to make their statements, and then we will have some 
questions.

    TESTIMONY OF P. LYNN SCARLETT, NOMINEE TO BE ASSISTANT 
SECRETARY FOR POLICY, MANAGEMENT, AND BUDGET, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman. I will summarize 
briefly the remarks I have submitted for the record. Mr. 
Chairman, Senator Murkowski, and members of the committee, it 
is a privilege and great honor to appear before you today as 
the President's nominee for Assistant Secretary of Policy, 
Management, and Budget at the Department of the Interior.
    As Congresswoman Capps noted, I have been a bird-watcher 
since the age of 5, when my mother began taking me into the 
countryside. I have embraced a conservation ethic throughout my 
life, a passion for hiking and canoeing, and an appreciation 
for resources stewardship.
    My other passion centers on public policy and governance, a 
passion that has translated into over two decades in a public 
policy career. I'm deeply honored President Bush has nominated 
me for a position that, should the Senate confirm my 
nomination, will allow me to bring together my personal 
interest in conservation with my professional interest in 
public policy.
    The responsibilities of the Department of the Interior are 
awe-inspiring ones. They present a complex interface of 
environmental, economic, and cultural values. I understand the 
management challenges that result from this complexity. I am 
committed to bringing a problem-solving focus to these 
challenges.
    Secretary Norton has outlined a vision for the Department 
of the Interior of conserving the wildlife habitat and wildlife 
resources of America's public lands, while maintaining 
America's prosperity and economic dynamism, respecting 
constitutional rights, and nurturing diverse traditions and 
culture. Her proposed tools for realizing these goals center 
around three themes, collaboration, communication, and 
consultation. I share that vision.
    If confirmed, I will work in a bipartisan and cooperative 
manner with the committee and with all members of the House and 
Senate. I have a reputation among those who know me for being a 
good listener, and always respectful of the ideas and concerns 
of others. If confirmed as Assistant Secretary of Policy 
Management and Budget at the Department of the Interior, I will 
work with Secretary Norton, this administration, and this 
Congress to secure a safe environment, maintain the beautiful 
landscapes of our national parks, and prudently manage the 
resources of our public lands.
    I'd like to thank those Senators and their staff with whom 
I have met so far. I look forward to continuing these 
relationships. Thank you for this opportunity to appear before 
you. I'd be happy to answer any questions you might have.
    [The prepared statement of Ms. Scarlett follows:]

    Prepared Statement of P. Lynn Scarlett, Nominee to be Assistant 
    Secretary for Policy, Management, and Budget, Department of the 
                                Interior

    Mr. Chairman, Senator Murkowski, and members of the committee, it 
is a privilege and great honor to appear before you today as the 
President's nominee for Assistant Secretary of Policy, Management, and 
Budget in the Department of the Interior. From age five--when my mother 
began taking me bird watching--to the present, I have embraced a 
conservation ethic, a passion for hiking and canoeing, and an 
appreciation for resource stewardship. My other passion centers on 
public policy and governance--a passion that has translated into more 
than two decades in a public policy career.
    I am deeply honored that President Bush has nominated me for a 
position that, should the Senate confirm my nomination, will allow me 
to bring together my personal interest in conservation with my 
professional interests in public policy.
    On behalf of the American public, the Department of the Interior is 
guardian of more than 20 percent of America's lands. It manages the 
world's greatest national park system--a system that connects us to a 
common landscape and shared national treasures. The Department works 
with more than 500 Indian tribes. It oversees public lands and offshore 
waters that produce 28 percent of the Nation's energy. It is steward 
over the wildlife, wilderness, resources and habitat that it conserves, 
manages, and protects for the American people.
    These are awe-inspiring responsibilities. They present a complex 
interface of environmental, economic and cultural values. I understand 
the management challenges that result from this complexity. I am 
committed to bringing a problem-solving focus to these challenges.
    Secretary Norton has outlined a vision for the Department of the 
Interior of conserving the wildlife, habitat and resources of America's 
public lands ``while maintaining America's prosperity and economic 
dynamism, respecting constitutional rights, and nurturing diverse 
traditions and culture.'' Her proposed tools for realizing these goals 
center around three themes--collaboration, communication, and 
consultation.
    I share her vision. For the past six years, I have led a project to 
research and document environmental programs for air, water, waste and 
land management that use incentives, cooperative decision-making, and 
performance measures to achieve environmental goals while maintaining 
prosperity and reducing conflict. My organization teamed with the 
Environmental Council of the States, an association of state 
environmental officials, to discuss these environmental innovations and 
expand our understanding of their promise. With my staff, I have 
developed a website clearinghouse of information on cooperative 
approaches to environmental management. This research provides me with 
a rich depth and breadth of knowledge about current experiences with 
cooperative approaches to conservation and resource management.
    In her proposed 2002 budget. Secretary Norton included the 
establishment of a new landowner incentive and stewardship program to 
help Americans protect imperiled species, enhance habitat, and conserve 
fragile land. The proposed budget would also facilitate conservation 
partnerships through the Cooperative Endangered Species Conservation 
Fund and the North American Wetlands Conservation Fund. The Partners 
for Fish and Wildlife Program would help foster voluntary partnerships 
for conservation purposes between the Fish and Wildlife Service and 
private landowners.
    Through my own research, I have glimpsed the results that such 
cooperative approaches to resource management can bring. For example, 
on the Cosumnes River in California, the Bureau of Land Management is 
working with local nonprofit organizations and local farmers to enhance 
habitat along the river. This and other partnerships like it show the 
promise of pursuing environmental and economic goals in tandem. They 
show the promise of working with the private sector and voluntary 
associations to achieve environmental, economic and other community 
goals.
    Good resource management requires more than new programs and 
adequate funding. It requires performance goals, relevant information, 
and accountability. I have spent much of my professional career working 
to understand best practices for performance-based budgets and 
management, public-sector contract management, and related tools of 
good governance.
    My organization has conducted workshops for public officials across 
America on how to use these tools. Two years ago, I helped the U.S. 
Environmental Protection Agency develop a full-cost accounting guide 
for local waste managers. Most recently, we teamed with the National 
Academy of Public Administration, the Council for Government 
Excellence, George Washington University, and others to explore 
challenges and tools for improving government performance. I look 
forward to working with Secretary Norton to ensure that all the 
Department's programs are implemented efficiently and effectively.
    I have always maintained a practical, problem-solving focus in my 
policy research. A decade ago, when I first suggested that local 
governments might want to consider using incentive-based fees for local 
solid waste service, a handful of cities used such fees. After helping 
the U.S. Environmental Protection Agency and others to explain how to 
implement these waste-reduction incentive programs, today more than 
7,000 local governments have such programs. My research and writing to 
explain how to calculate recycling program costs received a special 
award for its clarity and usefulness.
    My approach to the policy and management challenges at the 
Department of the Interior will emphasize Secretary Norton's 3 C's--
collaboration, communication, and consultation. During my professional 
career, these three C's have shaped my approach to addressing land-use, 
conservation and other resource management policy issues.
    If confirmed, I will work in a bipartisan and cooperative manner 
with the Committee, and with all members of the House and Senate. I 
have a reputation among those who know me for being a good listener and 
always respectful of the ideas and concerns of others. If confirmed as 
Assistant Secretary for Policy, Management, and Budget at the 
Department of the Interior, I will work with Secretary Norton and this 
Administration to secure a safe environment, maintain the beautiful 
landscapes of our national parks, and prudently manage the resources of 
our public lands.
    Thank you for this opportunity to appear before you. I would be 
pleased to try to answer any questions you might have.

    The Chairman. Thank you very much.
    Mr. Myers, why don't you go ahead.

TESTIMONY OF WILLIAM GERRY MYERS III, NOMINEE TO BE SOLICITOR, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Myers. Thank you, Mr. Chairman and members of the 
committee. As Ms. Scarlett said, it is a real honor to be here 
today, and I appreciate the confidence that the President has 
bestowed upon in me as his nominee to be the Solicitor of the 
Department of the Interior. I ask for your consent to the 
President's nomination.
    I would like to briefly discuss my qualifications. First 
and foremost, I, too, am passionate about the mission of the 
Department. This passion was instilled in me as a young man, 
when I would often go afield for scouting, hunting, fishing, 
camping and the like. As it came time for me to pursue a 
profession, I decided on the profession of law, and 
specifically that law related to natural resources.
    I attended the University of Denver College of Law because 
it offered a full curriculum in natural resources law. I took 
advantage of that, and have since specialized in public land 
law. Lawyers are particularly enviable in this society, because 
of the opportunity afforded to them to work in a variety of 
places and circumstances. I have taken advantage of those 
opportunities, having lived in and worked in Colorado, Wyoming, 
and now Idaho.
    My career has taken me across the West to places such as 
Lemmon, South Dakota, Three Creek, Idaho, Barrow, Alaska, and 
Las Cruces, New Mexico. I have practiced in the seven-lawyer 
firm and the firm with over 200 lawyers. I have practiced in 
small towns and large cities, in this body as an assistant to 
Senator Alan Simpson, and as an assistant to the Attorney 
General of the United States. I have represented clients before 
the Justice of the Peace and the Justices of the U.S. Supreme 
Court.
    Each of these experiences has personally benefitted me, and 
I think made me a better lawyer. I look forward to working 
closely with Secretary Norton on the President's initiatives 
for public lands. I will mention a few of those briefly.
    First is conservation partnerships. It's my experience that 
people who know the landscape best know its challenges and 
unique opportunities and how to conserve it. Indeed, the law 
recognizes that every parcel of land is unique by providing 
special so-called specific performance remedies for persons 
aggrieved in land transactions.
    While in Idaho, I had the opportunity to serve as chairman 
of a task force appointed by former Senator, now Governor 
Kempthorne to consider ways to manage Federal lands in Idaho, 
and we consistently learned in the course of that process that 
those who are closest to the land, regardless of their point of 
view, knew best how to conserve it.
    Second, the maintenance of our national parks. It's been my 
honor and privilege to also be a volunteer for the National 
Park Service. I have volunteered in parks across the country, 
including Yellowstone, Yosemite, Great Smoky Mountains, 
Catoctin Mountain Park, and Manassas National Battlefield Park. 
In that process, I've had an opportunity to see first-hand the 
maintenance backlogs that afflict our national parks. Many of 
those maintenance problems are most severe in the back country, 
perhaps because most of the maintenance dollars go to the front 
country, where most of the people traverse the parklands.
    However, the maintenance of the parks' infrastructure for 
the enjoyment of visitors, support of NPS personnel, and 
protection of the resources, is crucial.
    Third is balanced use. Like most Americans, I support 
multiple use of the departmental lands. At times, those uses 
are aesthetic or recreational, such as sunset on Half Dome, the 
smell of sagebrush after a spring rain, or the bugle of a bull 
elk. At times, those uses are commodity-based: food and fiber 
from livestock grazing, lumber and paper from forests, gasoline 
from oil production, or electricity from coal and hydroelectric 
generation.
    The fundamental challenge is to balance and sustain these 
uses for future generations, just as our generation has 
benefitted from that balancing act by previous generations.
    And lastly, Indian schools. I do not now fully appreciate 
the breadth and depth of the problems associated with schools 
for American Indian children, but I do know the importance of a 
good learning environment for the education of my children, and 
from what I have observed, the problems in Indian country are 
apparent to anyone willing to take a look. The President and 
Secretary are to be commended for prioritizing solutions to 
address a legacy of neglect.
    If confirmed, I will bring the whole of my experience to 
the challenges and experiences facing the Department. I will do 
my best to uphold the honorable tradition of the Solicitor's 
Office to vigorously represent my clients, to do so ethically 
and responsibly, and to expect the same from those who work 
with me.
    Thank you, Mr. Chairman. I appreciate the invitation to 
testify, and I will answer any questions you may have.
    [The prepared statement of Mr. Myers follows:]

 Prepared Statement of William G. Myers III, Nominee to be Solicitor, 
                       Department of the Interior

    Mr. Chairman, Senator Murkowski and members of the committee, I am 
honored to appear before you today as President Bush's nominee to be 
the Solicitor of the Department of the Interior. I ask your consent to 
the President's nomination. As the chief legal officer for the 
Department, the Solicitor plays an important role in assisting the 
President and the Secretary in the management and use of federal lands. 
I appreciate this opportunity to briefly present my views and 
qualifications for this office.
    First and foremost, I am passionate about the mission of the 
Department. This passion was instilled early in my life through 
innumerable trips afield for scouting, hunting, fishing and otherwise 
enjoying the great outdoors. In those days, I did not know or 
particularly care whether my activities were on federal, state, local 
or private lands. Not until I moved west did I begin to appreciate the 
differences. I chose to attend the University of Denver College of Law 
because it offered a strong natural resources curriculum. I took full 
advantage of those offerings and over time have specialized in public 
land law.
    Lawyers have the enviable opportunity to work in a variety of 
places and circumstances. I have had the great pleasure of living in 
three western states and plying my trade across the West in places such 
as Lemmon, South Dakota, Three Creek, Idaho, Barrow, Alaska, and Las 
Cruces, New Mexico. I have practiced in a seven-lawyer firm and a 200-
plus lawyer firm; in small, medium and large cities; in the United 
States Senate and as an assistant to the Attorney General of the United 
States. I have represented clients before the Justice of the Peace and 
the Justices of the Supreme Court. Each of these experiences has 
enriched me personally and, I think, made me a better lawyer.
    I will bring these experiences to the position of Solicitor. The 
Constitution, statutes and regulations that bind the Department must be 
faithfully executed. The Solicitor must advise the Secretary and the 
various offices and bureaus of the Department on a wide array of 
issues. The Office of the Solicitor currently handles over 2000 
administrative and judicial cases. This work is performed by nearly 400 
attorneys and staff in Washington and 17 other offices across the 
United States. The attorneys represent the Department in administrative 
and judicial litigation, with and without the assistance of the 
Department of Justice. In addition, the attorneys prepare formal legal 
opinions; review draft legislation, regulations, contracts, and other 
documents; and provide legal advice in a wide variety of circumstances. 
The Department's jurisdiction over 450 million acres of America assures 
no lack of important and fascinating legal challenges.
    I look forward to working closely with Secretary Norton on the 
President's initiatives for America's public lands, some of which are 
highlighted below.
          Conservation Partnership. Conservation works best when those 
        who are closest to the land and water are intimately involved. 
        People who know the landscape often know best its unique 
        challenges and opportunities and how to conserve it. Indeed, 
        the law has long recognized that every parcel of land is unique 
        by providing special, ``specific performance'' remedies for 
        persons aggrieved in land transactions. Partnerships between 
        the Department and those with local knowledge can maximize 
        conservation efforts and results. I have often observed this 
        phenomenon, most recently as chairman of a diverse task force 
        in Idaho appointed by Governor (and former Senator) Kempthorne. 
        The task force was chartered to consider management 
        alternatives for federal lands within the state. Over the 
        course of 17 months, we consistently learned the most about 
        federal lands from citizens who conserved, recreated on, worked 
        on, or neighbored federal lands. And not surprisingly, they 
        were the ones most interested in our efforts.
          Maintenance of our National Parks. I have volunteered many 
        hours of service to our national parks, including Yellowstone, 
        Yosemite, the Great Smoky Mountains, Manassas National 
        Battlefield Park, and Catoctin Mountain Park. Backcountry 
        maintenance problems on trails, at ranger cabins and campsites 
        often were more acute, perhaps because scarce resources were 
        devoted primarily to the high traffic areas. I enthusiastically 
        support the President's plan prioritizing maintenance of the 
        parks' infrastructure for the enjoyment of visitors, support of 
        park service personnel, and protection of the magnificent 
        natural resources.
          Balanced Use. Like most Americans, I support multiple use of 
        Departmental lands. At times, those uses are aesthetic or 
        recreational--sunset on Half Dome, the smell of sagebrush after 
        a spring rain, the bugle of a bull elk, the solemnity of a 
        battlefield. At other times, those uses are commodity-based--
        food and fiber from livestock grazing, lumber and paper from 
        forests, gasoline from oil production, electricity from coal 
        and hydroelectric generation. The fundamental challenge faced 
        by all land management agencies is to balance and sustain these 
        uses for the benefit of future generations--just as our 
        generation has benefitted from the work of those who have gone 
        before us. President Bush and Secretary Norton recognize and 
        accept this challenge. The Solicitor's Office can help chart a 
        course in compliance with scores of federal statutes and 
        regulations.
          Indian Schools. I do not now fully appreciate the breadth and 
        depth of the problems associated with schools for American 
        Indian children. But I know the importance of a good learning 
        environment for the education of my children. And from what I 
        have observed, the problems in Indian Country are apparent to 
        anyone willing to take a look. President Bush and Secretary 
        Norton are to be commended for prioritizing solutions to 
        address a legacy of neglect. I stand ready to lend the 
        assistance of the Office of the Solicitor in pursuit of those 
        solutions.
    If confirmed, I will bring the whole of my experience to the 
challenges and opportunities facing the Department. I will do my best 
to uphold the honorable tradition of the Solicitor's Office, to 
vigorously represent my clients, to do so ethically and responsibly, 
and to expect the same from those who work with me. Over the years, 
highly skilled and effective mentors have taught me a great deal about 
the practice of law. The attorneys in the Office of the Solicitor are 
extremely knowledgeable in their chosen fields and I look forward to 
continuing my legal education through their counsel and advice.
    Thank you, Mr. Chairman, for the invitation to testify today. I 
would be pleased to answer any questions.

    The Chairman. Thank you very much.
    Mr. Raley, why don't you go ahead with your statement.

  TESTIMONY OF BENNETT WILLIAM RALEY, NOMINEE TO BE ASSISTANT 
        SECRETARY OF THE INTERIOR FOR WATER AND SCIENCE

    Mr. Raley. Thank you, Mr. Chairman, Senator Murkowski, 
members of the committee. I first wish to thank those of you 
that I have had the opportunity to meet with, or to meet with 
your staff. I hope that that will be the first of many, because 
I know how important it is to communicate with you and your 
staff and with the House of Representatives.
    It is the greatest honor of my professional career to have 
been nominated by the President to serve as Assistant Secretary 
of the Interior for Water and Science. If confirmed by the 
Senate, it will be perhaps--it will be undoubtedly the greatest 
challenge that I will ever have.
    It is also a particular honor for me, because, Senator, if 
you will allow me, I sat in the chairs behind you, not in this 
room but in others, and I wish to take time to recognize your 
staff. I honor what each of you do. One of the things that I 
saw was--I happened to be back here when I happened to worked 
for someone in the majority, and I happened to be back here 
when I worked for someone in the minority, and both times I 
found a culture of respect that I will try to replicate as I 
move into this job, if confirmed by the Senate.
    You have met today--the reason why my wife, Barbara, and I 
believe in public service. When we moved to Washington 10 years 
ago to work for Senator Brown, Sarah was 3, and Janna was 6 
weeks old. We have tried for their entire lives to make our 
democracy alive and real for them through participation, to 
show them the value of fierce debate and honest consensus, and 
to convince them that, as Teddy Roosevelt said, it is far 
better to strive for great things and lose, than to live in a 
grey twilight of neither victory nor defeat.
    Our words would be hollow if we were not willing to serve 
ourselves. I have been involved in debates on water policy 
since I was a child in southwestern California. Senator 
Campbell, 33 years ago I attended meetings on the Animas-La 
Plata Project. I was young at the time, far younger, and I wish 
I had the wisdom that should have come with the 33 years. I 
have learned the heard way that things are not as simple as 
they seem, that good public policy requires patience and 
fairness.
    In the course of my 18 years of practicing law, and I like 
to litigate, I enjoy it, I have learned that cooperation is 
preferable to litigation, and that communication is more 
productive than confrontation. 10 years ago, I was struck by 
the dignity of the debate in the Senate, by the fact that 
incredibly contentious issues could be discussed and resolved 
without personal rancor, and by the need to be willing to work 
side-by-side with your opponents to find common ground.
    If I am confirmed as Assistant Secretary, I know that the 
issues that I will address are both complex and contentious. In 
particular, the task of a reconciliation of the requirements of 
the Endangered Species Act, with the protection of water rights 
and the prerogatives of States over lands and waters within 
their boundaries, is difficult, but not impossible.
    As proof, I point to the Upper Colorado River endangered 
fish recovery program as an example of what is possible with 
cooperation. I am proud to have been a participant in that 
effort, and I hope that that success can be replicated 
elsewhere.
    Senator, I am also proud of my service in your great State 
of New Mexico as Special Assistant Attorney General for the Rio 
Grand and Pecos River litigation. I was particularly honored by 
the words of one of my opponents in that litigation, who was 
quoted as saying that I played a constructive role in the 
settlement negotiations and have been willing to look for 
solutions that both protect private property and meet the needs 
of the listed species.
    Ten years ago, Secretary Norton and I helped Senator Brown, 
then Congressman Campbell, and then Congressman Allard to 
achieve what many thought was impossible, and that was to break 
what had been over a 10-year deadlock over the designation of 
wilderness in Colorado, and find a way to designate 
approximately 700,000 acres of wilderness in Colorado in a way 
that also protected water rights and State authority. I would 
not be before you today if I did not believe that principled 
compromises like that represent far better public policy than 
contention and litigation.
    If confirmed, Senators, I will consult with you and your 
staffs. If confirmed, I will communicate with your constituents 
and, if confirmed, I will look for cooperative approaches that 
will enable us to continue the proud tradition of conservation.
    Thank you for your time. I would be pleased to answer any 
questions members of the committee have.
    [The statement of Mr. Raley follows:]

    Prepared Statement of Bennett W. Raley, Nominee to be Assistant 
            Secretary of the Interior for Water and Science

    Mr. Chairman, Senator Murkowski, and Members of the Committee, it 
is a great honor to be before you today. When President Bush and 
Secretary Norton announced their intent to nominate me to serve as 
Assistant Secretary for Water and Science, Department of the Interior, 
I pledged that if confirmed, I would repay their trust with honesty and 
hard work, and with an unceasing search for the common ground that 
reflects the desire of the American people for fair and balanced 
solutions to the complex water and energy issues that we face as a 
nation. I also expressed my belief that protection of property rights, 
respect for our environment and fulfillment of the trust responsibility 
of the United States to Indian tribes cannot be viewed as 
irreconcilable goals. I believe that our obligation to future 
generations requires that we protect each of these elements of our 
heritage.
    I hold these beliefs notwithstanding the fact that I have been 
involved in water issues since I was a child. In fact, my first 
exposure to the complexities of water policy was with my father 33 
years ago, attending meetings where the subject of discussion was 
proposed Reclamation projects in Southwestern Colorado.
    More recently, I have served as an attorney for the Northern 
Colorado Water Conservancy District since 1983. This District is the 
local sponsor and repayment entity for the Colorado-Big Thompson 
Project. In that capacity I have addressed a wide range of issues, 
including over a period of many years the development of collaborative 
programs that meet the needs of the Endangered Species Act in a manner 
that protects water rights and recognizes a state's authority over its 
water resources.
    I also have had the honor, Mr. Chairman, of serving the great State 
of New Mexico for the past two years as a Special Assistant Attorney 
General in federal court litigation related to water rights and the 
Endangered Species Act in the Rio Grande and Pecos Rivers.
    Through this experience, I know full well that there are no easy 
answers or quick solutions to the complex water and environmental 
issues that I will address if I am confirmed. I have also learned that 
patience is perhaps the greatest virtue in the search for creative 
solutions to difficult problems. For example, the Upper Colorado River 
Endangered Fish Recovery Program has been 15 years in the making. I am 
proud to have played a part in this cutting-edge effort to avoid a 
conflict between attainment of the goals of the Endangered Species Act 
and the protection of water rights and state water allocations. 
Likewise, I have supported and participated in years of work to develop 
a program that will achieve ESA-related goals in the Central Platte 
through a Cooperative Agreement between the federal agencies and the 
States of Nebraska, Wyoming, and Colorado.
    My participation in these efforts to find cooperative solutions and 
my short service on United States Senate staff have proved to me that 
it is almost always possible to find common ground so long as people 
are committed to resolving complex and even highly contentious issues 
in the context of the laws and process of our democracy. My experience 
on Senate Staff also has demonstrated that it is possible to disagree 
without being disagreeable, to join with someone on an issue even 
though they oppose you on another issue, and to serve the citizens of 
the United States with dignity.
    If I am confirmed, I am particularly proud to have the opportunity 
to serve with the United States Geological Survey and the Bureau of 
Reclamation. Throughout my career I have considered the Geological 
Survey to be the premier science agency in the Nation, and if I am 
confirmed I will work to protect the scientific integrity that is an 
absolute prerequisite for good science. Their expertise is frequently 
sought by those engaged in the most contentious and difficult to 
resolve conflicts over resources. In addition, their work to help 
predict and mitigate the effects of hazards such as earthquakes, 
volcanoes and floods has enabled many communities to weather 
devastating natural disasters with minimal loss of life and property. I 
look forward to learning more about the USGS' scientific capabilities, 
and to being a strong advocate for science-based decision-making in the 
Department of the Interior.
    As I mentioned earlier, I have grown up in the Reclamation 
community. I believe that the legacy of Reclamation's century of 
service to the Nation is reflected in the strong families and vibrant 
communities that exist in part because of the Nation's investment in 
the future through the Reclamation Act. This legacy is worthy of 
protection. I refuse to accept the proposition that it is necessary or 
appropriate to destroy these families and communities in order to 
achieve other national goals. I also refuse to accept the proposition 
that the protection of the environment is not equally important--I love 
the West because of its environment and know that it must be protected 
for future generations.
    Finally, I share the commitment of the President and Secretary 
Norton to conservation of our natural resources. I know from personal 
experience that broad consultation produces better decisions, that good 
communication avoids needless conflicts, and that cooperation is 
preferable to litigation. I promise you that if confirmed, I will 
consult with you on issues that are of interest to this Committee, I 
will communicate with your constituents, and I will search for 
cooperative solutions to the complex issues that will be within my 
responsibility.
    Thank you for the opportunity to appear before you today.

    The Chairman. Thank you very much. Thanks to all three of 
you for your statements. I will start with questions and we 
will take 5 minutes each and go back and forth, and give 
everyone a chance to ask their questions.
    Ms. Scarlett, let me ask you first. You have spent your 
entire professional career at the Reason Foundation. This is a 
foundation known for its libertarian views. I believe that is a 
fair characterization. You have championed free market 
solutions, limited government and individual freedom. Unlike 
EPA and other regulatory agencies, the Department of the 
Interior's mission is not to regulate private enterprise, but 
to protect and conserve the Nation's resources and heritage. 
How do you see that libertarian philosophy meshing with the 
Department's mission?
    Ms. Scarlett. Thank you, Senator. Actually, I am a person 
that avoids labels. I would look at myself more as having a 
problem-solving focus, but one that tries to work 
cooperatively, and with the marketplace to address problems.
    I have spent the last 6 years in a partnering project with 
the Environmental Council of States, the association of State 
environmental regulators, that project looking at cooperate 
approaches not only to addressing pollution problems, but also 
land management problems. Most recently, I visited the Kusumas 
River in northern California, looked at a project there where 
the Bureau of Land Management is working in partnership with 
the Nature Conservancy and with private farmers to develop 
restoration endeavors that work in tandem with allowing their 
farmers to continue their farming operations.
    I view that kind of opportunity as a model, one that can be 
replicated. In fact, I have been heartened as I have looked at 
the Department of the Interior and its activities, at how many 
little seeds or kernels of these cooperative endeavors are out 
there, and it would be that approach that I would bring to the 
table, I believe.
    The Chairman. Mr. Myers, let me ask you if there 
Solicitor's opinions that you are aware of that you believe 
need to be revisited and changed.
    Mr. Myers. My predecessors, both the immediate predecessor 
and his predecessors, have issued a number of Solicitor's 
opinions over the years. I have no intention of going into 
office and immediately reviewing former Solicitors' opinions. I 
know that certain members of this committee and of the Senate 
and the House and elsewhere have interest in those opinions, 
and as those are brought to me we will take a look at them as 
the case should arise, but I have no agenda for systematically 
reviewing individual opinions to see whether they are good, 
bad, or otherwise.
    The Chairman. Could you agree to give members of our 
committee some advance notice before you reverse Solicitors' 
opinions? I think one of the sources of conflict we have had 
here in the past is when Solicitors would haul off and reverse 
a fairly well-established position without any kind of prior 
discussion Is that something you would be willing to do?
    Mr. Myers. I will look into that, Senator. I appreciate 
your concern. Honestly, I do not know enough yet about the 
process of even issuing a Solicitor's opinion to tell you what 
that process entails and where the opportunities are to pause 
and reflect, but I think it is a fair request, and I would be 
happy to work with you and your staff on that.
    The Chairman. Okay. Thank you.
    You challenged the Clinton administration rangeland reform 
rules before the Supreme Court and, as I understand it, the 
Court upheld those rules in a nine to nothing decision. Do you 
have any desire to go back and modify, or repeal those rules at 
this point, or are you willing to live with those rules as they 
were issued?
    Mr. Myers. The Supreme Court's decision was a pretty 
interesting one, actually, because I think what happened was 
that in chambers they came to a resolution based on the 
position advocated by the Solicitor General on behalf of the 
Secretary at the time.
    The ranchers who brought that litigation were greatly 
concerned about something known as grazing preference, and the 
loss of preference, and in the oral argument the Solicitor 
General said it was not the intention of those rules to affect 
grazing preference. That was a great relief to my clients at 
the time, and I think a relief probably to the Justices, and 
with that assurance, and they noted it in the majority opinion, 
they said that they would rule in favor of the Department's 
position.
    There are other issues that were raised that are still of 
concern to ranchers, but again, I have no intention to go in 
and do a wholesale review of that set of regulations. There 
were some 70 pages in the Federal Register at the time of 
publication. Some of them probably should be revisited simply 
because of the passage of time. They have now been implemented 
for a number of years, and some are working better than others, 
but again I have no particular ax to grind as I go into this 
office.
    The Chairman. One of the issues that has been quite 
contentious in my State involves the Pueblo Sandia claim to the 
west face of the Sandia Mountain in New Mexico. Are you 
familiar with the proposed settlement agreement that the Pueblo 
and Department of the Interior and others have entered into to 
settle that, and if so, do you have a position on that?
    Mr. Myers. I can't answer your question, Senator. I know 
there is a settlement proposal. I have not read it.
    The Chairman. Let me ask one final question of Mr. Raley. 
Last year, you testified before the House Resources Committee 
that you believe the Endangered Species Act should be repealed, 
and that Congress should not encroach on private property and 
the prerogatives of States to protect endangered species. Is 
that your view, and if so, what would you intend to do to 
pursue that point of view?
    Mr. Raley. Senator, if I recall my testimony correctly, the 
point was, is that in a perfect world the act should be 
repealed and replaced with a process that does not encroach on 
private property or States' prerogatives. I then went on and 
recognized that that was simply not politically feasible, and 
that the best course was to make incremental changes.
    My thought at the time, Senator, was on a couple of points. 
First of all, I was very frustrated at the time with the fact 
that we had just negotiated between three States, the Federal 
community, and the environmental community a process to address 
endangered species on the Platte River in Colorado, and yet we 
had to turn around and start NEPA, and it was going to be a 
process with checks and balances, and I thought, quite frankly, 
that was a waste of money.
    Likewise at the time, I was struggling with the inability 
to reconcile the relationship of critical habitat designation 
with section 7, with section 9, with the listing process, and I 
thought that those portions could be properly clarified in a 
way to where the act did more for the species and less for 
attorneys like myself.
    So if I unartfully made the point that in a perfect world 
this body, with the knowledge we have over 30 years, I have no 
doubt could come up with a more effective program, my intent 
was just to make the point that the act needed revision, and 
that incremental approaches were the most effective.
    The Chairman. Senator Craig, why don't you go ahead.
    Senator Craig. Thank you very much, Mr. Chairman.
    Ms. Scarlett, we have not met, to my knowledge. I am aware 
of you, and I have looked at your bio, and I would enjoy 
reading some of your articles. I'm not quite sure I would have 
time to read them all, but unlike a frustration that might have 
arisen out of the chairman's expression that you were a 
libertarian, I find that mighty exciting, and in that context, 
while I have not read it, let me ask you what the article that 
you wrote for the Santa Barbara News Press on August 2000 said.
    Now, I will give you the title of it, and I should never 
ask a question that I do not understand the answer coming 
forth, but I do not. I am out fishing at the moment, so please 
explain the article that was entitled, ``Regional Government 
versus Localism.'' Do you remember that?
    Ms. Scarlett. Yes, I do remember it somewhat. As you note, 
I have written, I think regrettably, an awful lot of stuff.
    Senator Craig. We have the bios of everyone up here, and 90 
percent of it is yours.
    [Laughter.]
    Ms. Scarlett. I apologize for that. Had I known I was going 
to be here, I would have been much less hefty with my pen.
    One of the issues we face in Santa Barbara County is 
challenges relating to traffic congestion, as well as land use 
that go beyond the borders of the city of Santa Barbara itself, 
and because of those cross-boundary challenges, there has been 
a proposal or suggestion that we move to a regional government; 
that is, that rather than the city having its own governance of 
those issues separate from the county, and separate from 
related cities, that one move to a regional government.
    My organization has done a fair amount of research on 
regional governance, and it is not clear that by going to a 
larger scale you necessarily get better service to the 
citizens, nor at lower cost. In that article, I argue instead 
it was better to keep the smaller sized government that allows 
for better citizen access, but there are mechanisms such as 
joint powers agreements that allow for coordination. That was 
the major gist of the article.
    Senator Craig. One of the things I try to foster here in 
policy as a reaction to the rather top-down style of management 
for the last several decades as it relates to public land 
resources is a local collaborative approach for dealing with 
issues.
    I think Mr. Myers mentioned that there is a tremendous 
interest and a good conservation ethic at the local level, if 
they're allowed to be participants. In your role that you will 
soon play with the Department of the Interior, do you see a 
role for local participants and stakeholders to be a part of 
the decisionmaking process in a collaborative format?
    Ms. Scarlett. Yes, Senator, actually I see that as a 
hallmark of what the Secretary of the Interior is attempting, 
along with this administration, to promulgate, and one of the 
reasons I believe that Secretary Norton has asked me to join 
her is that I have spent 4 or 5 years now documenting on a web 
site a number of these local cooperative approaches to 
environmental protection, hoping to bring some of those ideas 
into the Department.
    I am pleased to note that there are already quite a few 
such examples occurring, perhaps at small scale, that can be 
worked with and built upon.
    Senator Craig. Well, I will look forward to working with 
you, because I think that conflict that we have experienced out 
of the local level with public land management and resource 
management over the last several decades has an opportunity to 
be lessened if we involve all parties in decisionmaking, 
instead of the idea that a Solicitor or Secretary knows better 
how to run the local unit.
    Mr. Myers, we have just finished with a Solicitor who not 
only chose to change a lot of opinions, but became an advocate 
in his role as Solicitor from his private experience and 
private role. It was quite obvious to me and others on our 
committee by some of his decisions that he was intensifying his 
advocacy role. In fact, about half-way through the second term 
of the Secretary, the Secretary mentioned that he really did 
not need this committee or Congress, that he could govern by 
regulation or by decision of the Solicitor.
    The Solicitor is the attorney of the Department of the 
Interior and the Secretary, and I would hope that you approach 
that role as a consultant and an attorney, and not an advocate. 
While certainly you can make your recommendations known to your 
Secretary and to this committee, and you should, I think all of 
us were frustrated, and the publics were frustrated over the 
past several years that we had a Secretary of the Interior and 
his attorney that chose to take a lone course, if you will, and 
not involve the public process or the public policymakers. How 
would you respond to those comments?
    Mr. Myers. Well, Senator, I can only tell you my approach 
to those issues and that is as an attorney in private practice. 
As such, I am responsible to my clients. I have an ethical duty 
to represent them vigorously, but at the end of the day, they 
are the clients, and they tell me what they want to do.
    I might recommend litigation, I might recommend settlement, 
I might recommend alternative dispute resolution, but I give 
them the best I know in the way of the law and my understanding 
of the facts, and tell them what those are, and let them tell 
me what they want to do. That will be my approach to this job. 
The Secretary will be my primary client. I will present her 
with the law and the facts as I understand them, and then let 
her decide, and she has told you and the public she fully 
intends to involve State and local communities in her decision 
process. I am sure that is where we will end up.
    Senator Craig. Mr. Chairman, my time is up. I will come 
back to Mr. Raley in the next round. I would say to you that if 
there is a list of Solicitor opinions that have been changed, I 
have a long list, and as I submit them to Mr. Myers in the 
future, I will also submit them to you, Mr. Chairman.
    Thank you very much.
    The Chairman. I am shocked to hear there is anything you 
disagree with.
    [Laughter.]
    The Chairman. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for this hearing. I would like to add my welcome to the 
nominees and their lovely families, and to congratulate the 
nominees for their outstanding credentials that they bring to 
this hearing. I want to thank Ms. Scarlett and Mr. Myers for 
taking the time to meet with me.
    I particularly have questions for Ms. Scarlett and Mr. 
Myers, and for Mr. Raley I want to say, as you may know, last 
year legislation was passed making Hawaii a reclamation State. 
Because of that, I look forward to working with you on the 
study of Hawaii's reclamation needs and drought assistance 
planning.
    My questions' and I want to ask you questions for the 
record, have to do with Public Law 103-150, which was signed 
into law in 1993. In summary the Apology Resolution apologizes 
to Native Hawaiians on behalf of the people of the United 
States for the overthrow of the Kingdom of Hawaii on January 
17, 1893, and calls for a reconciliation between the United 
States and Native Hawaiians.
    In 1999, consultations were held in Hawaii between 
representatives from the Departments of the Interior and 
Justice and Native Hawaiians. On October 23, 2000, the 
Departments released a report about the public consultations, 
with recommendations for additional steps in the reconciliation 
process.
    My question is, the reconciliation process is an 
incremental process of dialogue between the United States and 
Native Hawaiians to resolve a number of longstanding issues 
resulting from the overthrow of the Kingdom of Hawaii. The 
Department of the Interior has had the lead in this process, as 
the agency that deals with indigenous peoples within the United 
States jurisdiction. I look forward to working with you on the 
reconciliation process, and I would like to know your thoughts 
regarding the continuation of this important process between 
Native Hawaiians and the United States.
    I would like to hear from Ms. Scarlett and Mr. Myers.
    Ms. Scarlett. Thank you, Senator. Thank you very much for 
meeting with us the other day. I very much appreciated it.
    My exposure to the issues you raised the other day were in 
fact my first exposure. I have not yet had an opportunity to 
read the reconciliation report and its proposals, but certainly 
I look forward to doing that, and very much look forward to 
working with you on that incremental process.
    You described working with the Native Hawaiians and the 
Department of the Interior and other relevant parties to pursue 
that process. With respect to specifics, until I have read the 
report and know the details of how to proceed, I could not give 
more than that, but I certainly look forward to working with 
you on that.
    Senator Akaka. Mr. Myers.
    Mr. Myers. Senator, I find myself in the same position as 
Ms. Scarlett, in that I have not had a chance to read the 
actual recommendations.
    I do understand and appreciate your concern, obviously, on 
behalf of your constituents and on behalf of Native Hawaiians. 
I also appreciate the concern of indigenous people in the 
continental United States, and the involvement of American 
Indians in these issues, and of the non-Indian communities as 
well, and so it is clearly a complex situation. It is one that 
needs to be addressed, and I commend you for bringing it to the 
attention of the Senate, and I will commit to looking into it 
when I get there, if confirmed.
    Senator Akaka. Thank you. One of the recommendations of the 
report, released October 23, 2000, is the establishment of an 
office within the Department of the Interior to focus on issues 
involving the indigenous peoples of Hawaii, Native Hawaiians. 
The authors will continue to facilitate the reconciliation 
process, and will assist Native Hawaiians in addressing the 
political and legal relationship between Native Hawaiians and 
the United States.
    The office would not serve as another Bureau of Indian 
Affairs, but would function similar to that of the Office of 
American Indian Trust, as a liaison between the community and 
the Federal Government.
    My question is, what are your thoughts regarding the 
implementation of this recommendation?
    Ms. Scarlett. Thank you, Senator Again, I have not had the 
opportunity to discuss with either Secretary Norton or the rest 
of her staff that particular recommendation, but I certainly 
look forward to working with you and exploring the 
opportunities for pursuing those reconciliation interests and 
that dialogue with the Native Hawaiians, and exploring whether 
establishment of such an office would be possible.
    Senator Akaka. Let me ask another question. The Office of 
Insular Affairs, which deals with U.S. territories, falls under 
your jurisdiction. Historically, the Federal policymakers in 
Congress and the executive branch have addressed territorial 
issues in a bipartisan manner, and I am hopeful that we can 
continue this tradition under the Bush administration.
    What is your position on maintaining the Interagency Group 
on Insular Areas, and what efforts will be undertaken by the 
administration to ensure that political appointees charged with 
territorial issues at the White House and the Office of Insular 
Affairs will be chosen based on their qualifications and 
knowledge on territorial issues?
    Ms. Scarlett. Thank you, Senator. I would put a premium on 
all that I do in the Department of the Interior on 
coordination, interagency as well as within the agency, the 
relevant departments, so the theme that you put forth is very 
much consistent with how I would hope to manage those matters.
    Likewise, your hope that we would continue in a bipartisan 
manner those dialogues would be very much consistent with my 
desire to be very inclusive, and have cooperative 
consultations.
    Certainly, I also share your desire to ensure that very, 
very well-qualified people are put into the places of various 
positions as they come up. I have not had the opportunity to 
work on that specific issue and the personnel as it relates to 
that issue, but certainly those themes would guide my 
decisionmaking.
    Senator Akaka. Thank you for your responses. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much.
    Senator Campbell.
    Senator Campbell. Thanks, Mr. Chairman.
    Dr. Scarlett, when we first came in, my friend Senator 
Craig, who stepped out for a moment, and I were going through 
your very extensive resume, and we were musing about what some 
of the articles could have been about that you wrote, Buying 
Green, Recycling Markets, Clear Thinking About the Earth, the 
Bush Environmental Record, and I have to tell you that we were 
speculating what all that could mean from a philosophical 
standpoint, but the more you talk, the better we like you. I 
want to tell you that.
    I have no problem with libertarians, by the way, Mr. 
Chairman. We have got a lot of them in western Colorado, as you 
might guess. Some people around here believe in a bigger 
Federal Government, some believe in a smaller Federal 
Government, and to my knowledge, they believe in no Federal 
Government, and there are places in my State as well, as the 
chairman states, where that is a prevailing opinion, as you 
might guess, in some places.
    But I just wanted to ask you one question, because I was 
interested in some of the groups you belong to. Could you tell 
the committee, what is FREE?
    Ms. Scarlett. Yes. That stands for Foundation for Research 
on Economics and the Environment. It is a nonprofit 
organization that works on environmental economics, the study 
of the environment, application of economic concepts to 
environment. They do seminars for journalists, for what they 
call environmental entrepreneurs, that is, nonprofit 
environmental groups, and also they have Federal judges' 
programs on economics for environment.
    Senator Campbell. Is it a research group, a think tank?
    Ms. Scarlett. Yes it is.
    Senator Campbell. Based in Boise?
    Ms. Scarlett. That is correct.
    Senator Campbell. That is my only question for you, Dr. 
Scarlett.
    Ms. Scarlett. One clarification. I am actually not doctor. 
I am what is called ABD, all-but-dissertation. I completed my 
coursework and exams.
    Senator Campbell. I apologize for that. That is a better 
title than some of us have. I was thinking about asking the 
chairman to take a recess so we could read up on this extensive 
background you have had, but you have been very, very prolific.
    I also wanted to ask, I have no questions for Mr. Myers, 
but for Bennett Raley, Bennett, you are very familiar with the 
Animus-La Plata, as well as the Black Canyon of the Gunnison, 
having worked here. You know that we passed again last year 
another Animus-La Plata bill, which we hope is going to finally 
settle the Ute Indian water rights question. Senator Bingaman 
was a prime cosponsor of that bill, and we worked very hard on 
that and got that thing passed.
    It is my understanding already the opponents of that 
project are gearing up for a fight in court, I suppose to use 
the Endangered Species Act again as some kind of a defense, but 
they are going to try and stop it.
    Those of us, including Senator Domenici, have worked years 
and years on this. It provides water for both of our States, as 
you know, and I would hope that if that does come to court you 
are going to be willing to take an aggressive position on that 
and try and get that thing moving, because over and over, the 
objects of the opponents of that project is to simply drive up 
the cost until we cannot build it, you know that as well as I 
do, and it is going to be very, very important for both of our 
States of New Mexico and Colorado.
    One other thing, too, you are familiar with the waning days 
of the Clinton administration. There was a water quantification 
of the Black Canyon of the Gunnison done. When we passed that 
bill last year, I thought the thing was pretty clear, because 
it did specify that the decisions had to be done in the State 
water court, that there was no--although there is an implied 
Federal reserve right, there is no specific quantified Federal 
reserve water right in that bill, and we took a long time to 
write it to try to give direction, again, to the courts about 
any question about water.
    I understand there has been over 300 comments of opposition 
to the final decision that the Clinton administration did. Have 
you studied that, or had any involvement at all in that, since 
you have been out in the private sector?
    Mr. Raley. Senator Campbell, yes, I have had involvement. 
In fact, my firm filed one of those statements of opposition, 
so as a consequence I will be recused from addressing that 
issue and others in the Department, starting with--Mr. Myers, 
will handle that, because I will be unable to participate.
    Senator Campbell. You will be recused from having anything 
to do with the Animus-La Plata because in the past you worked 
in support of that objective?
    Mr. Raley. No, sir, not to my knowledge. I believe there 
will be no recusals for the Animus-La Plata project, because I 
have had no official involvement with that project.
    Senator Campbell. I see. Thank you. No further questions, 
Mr. Chairman. Thank you.
    The Chairman. Thank you.
    Senator Thomas.
    Senator Thomas. Sort of in a broad sense, Ms. Scarlett, we 
have been working for sometime to sort of strengthen the 
business plan approach, and specifically in the Park Service, 
and the idea of bringing in more private input with 
concessionaires and the business operations. What is your 
notion?
    I see you are talking about management here, and that is 
one of your issues. How would you deal with private sector 
input, and business plans and so on, for agencies?
    Ms. Scarlett. Yes, thank you, Senator. Fortunately, one of 
the things my organization has focused on for 20 years is, in 
fact, what we call good governance, and bringing business 
management practices to government, so I have a lot of 
familiarity with performance-based budgeting, activity-based 
costing, and other rather mundane-sounding governing tools, but 
very important. I would hope to bring some of my knowledge on 
those matters to the National Park Service, working with the 
Director, working with the Secretary of the Department of the 
Interior to help infuse some of those tools.
    I am pleased to note in my initial review of what is going 
on in the Park Service major attempts to improve the business 
practices. There is a way to go, particularly in terms of 
contract management. Fortunately, I do have familiarity with 
contract monitoring and best practices, and would hope to bring 
that experience to the table.
    Senator Thomas. That is good. Obviously we would encourage 
the Department to maintain the resources, but there is such 
heavy visitation.
    Now, Mr. Myers, it seems as if many of the decisions in 
public lands, for example, are driven by what some people 
believe are frivolous suits and, indeed, these are never 
pursued and never defended, but they just go ahead and make 
that decision. How would you handle this sorting out of suits 
as to what the Justice Department ought to go forward with? 
What is your view of that?
    Mr. Myers. Frivolous litigation is a curse on our legal 
system today, because it clogs up an already overtaxed 
judiciary. Many cases will come before me, and they will be 
numerous--in fact, the docket of the Solicitor's Office is 
somewhere over 2,000 cases, with administrative and judicial 
litigation. I think it will be apparent those which are of 
value and should be defended by the United States, or 
prosecuted by the United States.
    I look forward to working with my colleagues at the 
Department of Justice. I had a chance to work in that 
Department for Attorney General Thornburgh, and obtained in 
that process a pretty good overview of the departmental 
workings. I understand the relationship between the Department 
of Justice, as the litigator for the United States, and the 
Department of the Interior, which in my case will be the client 
agency. But as the client, I intend to make fully known my 
opinions on behalf of the Department of the Interior to 
colleagues at Justice, to make sure that we defend those cases 
which should be defended, and we prosecute those cases which 
should be prosecuted.
    Senator Thomas. It is kind of scary to think that policy 
decisions are made based simply because somebody filed a 
lawsuit.
    Mr. Raley, you will be involved in water. It kind of seems 
like over the last several years that EPA has had more to do 
with water management than Interior, and when you talk, for 
instance, about the clean air action plan, which many believe 
is more designed to manage the land than it is the water, how 
do you propose to work with EPA?
    Mr. Raley. Senator, closely, is how I propose to work with 
them. Secretary-designee Griles has made it clear to us that 
cooperation should be the byword with sister agencies and, if 
confirmed, I will spend time with EPA, the Corps, the 
Department of Energy, because of their involvement in WAPA and 
the power marketing agencies, because I know from my private 
experience when the Federal Government doesn't speak with one 
voice it's somewhat frustrating to be in the outside world, and 
I'll do my small part to communicate with the other agencies.
    Senator Thomas. Well, it seems sometimes a little 
frustrating that agencies such as Interior and others sort of 
have plans for the development of water and its use, and EPA 
comes up with something over here that is entirely different, 
and it seems like there ought to be some coordination in the 
operation between the two.
    Thank you.
    The Chairman. Thank you.
    Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    Senator Domenici. Would you yield for a moment?
    Senator Kyl. Absolutely.
    Senator Domenici. Mr. Chairman, I have a prepared statement 
in support of the candidates that I would ask to insert in the 
record, and I would like that to be made a part of the record, 
and I would support each of their nominations.
    The Chairman. Very good.
    [The prepared statement of Senator Domenici follows:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, I appreciate your calling this hearing today, because 
these nominations are critical to the Department of the Interior and to 
our state of New Mexico. Unfortunately, the Department of the Interior 
is the only cabinet department in which only the Secretary has been 
confirmed. This is particularly distressing considering the broad 
mission of the Department. Its wide jurisdiction includes our national 
parks, water issues, American Indians, public lands, and preservation 
of our nation's resources.
    Much of the Department's work directly affects New Mexico. The 
federal government manages over 30 percent of the land in New Mexico. 
The Interior Department has the duty to protect these lands from the 
ever present dangers of wildfire. In the wake of the Cerro Grande Fire, 
which began as a controlled burn by the Park Service that raged out of 
control and burned over 400 homes and businesses in the Los Alamos 
area, we all observed how momentous this responsibility is.
    New Mexico also has one of the largest American Indian populations. 
They depend on the Bureau of Indian Affairs to administer child and 
family services, education programs, and economic development 
assistance. These services are important in enhancing the quality of 
life of American Indians and in promoting tribal economic 
opportunities.
    New Mexico and many Western states also rely on the Bureau of 
Reclamation to assist them in water management issues. The Bureau 
administers numerous initiatives that help the Western states meet 
their water needs and help balance the multitude of competing uses of 
water in the West.
    Given the importance of these programs to New Mexico, it is vital 
that the Interior Department has knowledgeable and experienced 
officials to carry out its many missions. I am proud to report that the 
three nominees before the committee today will bring these important 
qualities to the Department. They have remarkable expertise in interior 
issues and have outstanding experience in both the public and private 
sectors. I am certain that they will serve the Interior Department with 
pride, and I look forward to working with them on issues critical to 
New Mexico.

    Senator Kyl. Mr. Chairman, I, too, would like to support 
all three nominees. I think the President has done an excellent 
job in reaching out to bring in people not only with a broad 
experience in the area, but also different points of view that 
I think should really support the Secretary very, very well.
    Most of the time these hearings, the question can be 
answered with, we will work with you on that. I mean, that is 
kind of a bottom line on most of these questions, and that is 
really the bottom line of the question that I pose, but I have 
a long preamble that I would like to give.
    The Chairman. If you would like to put that in the record, 
we would be glad to have it.
    [Laughter.]
    Senator Kyl. It is only 4 minutes long, Mr. Chairman. I 
will keep it within the time limit, but when Bill Myers came to 
my office for a courtesy visit yesterday, I gave him the full 
20 minutes. He could not wait to get out of the office.
    The problem is, if all three of you are confirmed, you are 
going to have to deal with some of these problems, and my main 
question is, will you work to expedite it, because the problems 
that I identified, Mr. Myers, and to some extent talked to Mr. 
Raley about as well, involve Indian water settlements, and 
Bennett, when you said you had been working on the settlement 
for 33 years, Ben Campbell has told me the same thing about how 
long and difficult the Animus-La Plata has been.
    We have got the same situation in Arizona. We are just 
about ready to go with the Zuni settlement. We are working hard 
on the Gila River settlement, and we will need to turn our 
attention very soon to the Little Colorado settlement. The Zuni 
settlement should not be very difficult, but the other two will 
be very difficult. The Navajo, the largest tribe in the United 
States, they live side-by-side with the Hopi, and both have 
claims to the Little Colorado River that raise some difficult 
issues.
    The Gila River Indian Community is directly south of 
Phoenix, fifth or sixth biggest city in the country, and 
another 20 or so communities with irrigation districts next 
door, and a water budget that has been agreed to of 645,000 
acre feet. We have determined that just about half of the 
Colorado River that Arizona is entitled to, a million and a 
half acre feet, will go to the Indian water settlements, 
believe it or not.
    The cost of completing the irrigation projects for the Gila 
River Tribe are approaching $1 billion, so these are very 
significant settlements, and soon I am going to have to visit 
with you, Mr. Chairman, about how we, once we introduce the 
legislation, get hearings and move these settlements forward. 
They are going to be very complicated, they are going to be 
very difficult, but in order for them to work they are going to 
require a lot of commitment of time by all of you in the 
Department.
    And I think, if I understand the obligations that each of 
the three of you have, each of the three of you will have to 
have, at some point, some interface with these settlements.
    The only thing I can ask of you now is to work with us to 
expedite the Department's participation as much as possible, 
and that is a commitment, obviously, each of you can make 
easily, because you do not know anything about it yet, but we 
are going to need substantial cooperation from the Department.
    All three of these settlements were supported by the 
previous administration, and we advanced them significantly 
with the help of Secretary Babbitt, and David Hayes in his 
office. There is nothing partisan about any of them. They are 
all strictly bipartisan, and I guess without getting into any 
more detail, Mr. Chairman, I am making a plea at this point in 
advance for cooperation not only from the members of this 
committee, but also from the people at the Department of the 
Interior, because working together we might be able to get 
these settlements done within a time frame that some of the 
members of the Indian community alive today will actually see 
the benefits.
    I know that Senator Campbell and I have commiserated about 
this problem for a long time, translating paper rights into wet 
water, and it is my goal that we will get this accomplished as 
soon as we possibly can, with the cooperation of these very 
fine nominees here.
    So that is sort of the question. If any of you would like 
to comment, you are welcome to do so, but let me just say, I am 
looking forward to working with all three of you.
    Thank you, Mr. Chairman. That was 3\1/2\, 4 minutes.
    The Chairman. You did an excellent job. Any comments in 
response to any of that?
    Mr. Raley. Senator, we will work with you.
    [Laughter.]
    The Chairman. That is a profile in courage if I ever heard 
one.
    [Laughter.]
    The Chairman. Let me ask a few additional questions.
    Mr. Raley, the Bush administration has proposed deep cuts 
in the budget for the Geological Survey for this next year, for 
2002 fiscal year. The water resources program in that 
Department will be particularly hard hit. If you are confirmed, 
will you revisit the decision to make those cuts and work with 
those of us here in Congress to try to ensure that there is 
adequate funding for the Geological Survey?
    Mr. Raley. Senator, most certainly we will work with you 
and other members of Congress on the budget. I was not involved 
in the 2002 budget. One of the first tasks that I will have if 
confirmed is to work on the 2003 budget. I know that there will 
be tough choices and trade-offs. That is inherent in the 
budgeting process, and also inherent in the process is working 
with the Hill to figure out the appropriate prioritization of 
the scarce resources.
    The Chairman. Thank you. The Albuquerque area manager for 
the Bureau of Reclamation and the Upper Colorado regional 
director positions, both of those positions have been vacant 
for sometime. This has hampered efforts to resolve some of the 
water conflicts with the Pecos and the Rio Grande. If 
confirmed, would you move quickly to fill those key positions?
    Mr. Raley. Yes, sir.
    The Chairman. What is your view of the efforts of the 
previous administration to use a river basin or ecosystem 
approach such as the Cal Fed, the Platte River, or the Upper 
Colorado River recovery program? Would you continue those types 
of efforts, if confirmed?
    Mr. Raley. Absolutely, sir. That is what I was trying to 
say in my opening statement, that is the only way that these 
complex, large basin issues can be resolved, because if you try 
and address them piecemeal through litigation, or piecemeal 
through individual permit applications, they are so 
interrelated, the actions of entities in the basin are so 
interrelated it is virtually impossible to come up with a 
rational solution, and while the cooperative processes, like 
you mentioned, are difficult, and require endless person-years 
of time, I believe they are the only way to move forward with 
sustaining a strong economy and protecting our environment.
    The Chairman. One other issue I want to flag for you, and 
put it in the same category of Senator Kyl's issue, as one that 
I need to ask you work with us on, is the problem of the 
depletion of the Ogalala aquifer, which involves the eastern 
part of New Mexico and, of course, parts of west Texas, and 
several other States.
    This is an issue that I think requires some Federal 
attention. Now, I do not know precisely what the Federal role 
is. I introduced a bill in the last Congress that tries to 
identify a way of approaching the problem to reduce the rate of 
depletion of that underground aquifer, and I would be 
interested to call that to your attention and ask for your help 
in coming up with some solutions to this problem, because long-
term, as I think you are well aware, the depletion of that 
aquifer is a major economic problem for that part of the 
country.
    Mr. Raley. Yes, sir. As a matter of fact, one of the jobs 
that I had when I was trying to earn money for law school after 
college was working for a subcontractor on an Ogalala aquifer 
study, and I traveled through parts of it interviewing farmers 
about the decline in water levels and the consequences, and 
while that experience is somewhat dated now, as you mentioned 
the problem I flashed back to it, and understand its 
importance.
    The Chairman. Thank you very much. That is all the 
questions I have.
    Senator Akaka, did you have some additional questions?
    Senator Akaka. Yes, Mr. Chairman. I have a question for Ms. 
Scarlett. I want to return to the reconciliation report.
    The primary recommendation in the reconciliation report 
called for an extension of Federal policy of self-determination 
and self-governance to Native Hawaiians in government-to-
government relationships. I have introduced legislation to 
provide for such a process upon the reorganization of the 
Native Hawaiian governing entity.
    It is my understanding that the Department is currently 
reviewing this legislation. Have you had an opportunity to 
review S. 746, and what are your thoughts about that 
legislation?
    Ms. Scarlett. thank you, Senator. I have not had an 
opportunity with the Department yet. We have had a very arm's-
length overview of issues so far, but I certainly appreciated 
your raising this issue when we met the other day, and look 
forward to looking at that legislation, and look forward to 
working with you and with the Department to develop its 
response to that.
    Senator Akaka. Mr. Myers, would you have any comment on 
that?
    Mr. Myers. I can't add to Ms. Scarlett's comments.
    Senator Akaka. Mr. Myers, Guam and the U.S. Virgin Islands 
are the only two territories whose tax codes mirror the U.S. 
tax codes. As a result, President Bush's tax cut plan will 
require rebates or credits to come from the territorial 
governments, rather than the U.S. Treasury.
    Given the fact that the governments of Guam and the Virgin 
Islands are in deficit, and face double-digit unemployment 
rates, what coordination will be undertaken by the Department 
of the Interior and Treasury to work with the territorial 
governments on ameliorating the effects of the tax cut plan on 
their economies?
    Mr. Myers. I think you have put your thumb right on it, 
which is, it is going to be primarily a Department of Treasury 
issue, I assume, based on the revenue issues raised by it, but 
because of the Department of the Interior's jurisdiction 
regarding the territories, we are going to have a role, and I 
would be happy to engage my parallel colleague at the 
Department of Treasury and discuss this.
    I will admit to you, sir, I do not know anything about it, 
but I will learn about it.
    Senator Akaka. I want to thank you for your responses. It 
is good to have you here, and I wish you well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman. I extend my 
congratulations to each of the nominees, and look forward to 
helping them in their service, and I wish them every success.
    Bennett, I wonder if I could address a few questions to 
you, inasmuch as you will be in charge of the Bureau of 
Reclamation, or its oversight. In my home county of Umatilla 
County, Oregon, for more than a decade they have been trying to 
resolve the water boundary issue, and that dispute is holding 
up an authorization of what is called phase 3 of the Umatilla 
project, and I wonder if you can give me a commitment to make 
resolution of these boundaries a high priority?
    Mr. Raley. Yes, sir, I can. I do not know that I will be 
able to succeed, but I will try.
    Senator Smith. It is very, very important, and I think the 
parties involved are closer than ever, and I think with a push 
from the Bureau, I would think this could be done, to the great 
benefit of all involved, the environment, the tribes, and the 
local communities in that area could be benefitted by 
completion of the projects, and water exchanges.
    I do not know whether you have seen the New York Times 
today, but it is hard not to pick up a paper or listen to some 
of the cable news networks without having the plight of Klamath 
County, Oregon rudely confront the reader and the observer with 
what a man-made catastrophe we have in this part of California 
and Oregon, and I wonder if you can tell me how you will make 
sure that this never happens again, what the Department will do 
to assure that these 1,200 farm families, 200,000 acres, will 
not have sacrificed a year of their lives in vain. What ideas 
do you have, and what does the Department intend to do to make 
sure that there are not more Klamath Falls situations 
throughout the West?
    Mr. Raley. Senator, I believe that the issue of how to 
comply with the Endangered Species Act in a way that recognizes 
and preserves local communities is one of the highest 
priorities that will be addressed within the Department, and 
while I cannot promise you--I wish I could--that it will never 
happen again, I will promise you that that issue of trying to 
find innovative ways through collaboration to achieve the needs 
of the species and respect water rights and contract rights, it 
just simply has to be a departmental priority.
    I know the Secretary has made it a priority. As short-
staffed as she has been, she has assigned her top people to 
these issues, and I can promise you that the Klamath will be 
one of my priorities because of the urgency of the situation up 
there.
    Senator Smith. I would appreciate it. This situation has 
become something of a poster child all over the West. There was 
a rally there recently, and I conservatively would estimate the 
bucket brigade we had as a peaceful protest of 15,000 people, 
and there were people from all over the West, and I even told 
the chairman that there were some Rio Grande irrigators from 
new Mexico there, who shared with me their concern that they 
did not realize that this actually could happen, that the 
silvery minnow there that jeopardizes their rights, they never 
though that that could ultimately end their way of life until 
they saw what happened on the Klamath.
    So if this keeps going, it is going to go all over the 
West. The Klamath is just the first, if we do not get some kind 
of change in the operation of the Endangered Species Act. For 
example, just independent peer review, which would have been 
nice in the case of the Klamath, but it just was not there.
    I am a cosponsor of a bill with Senator Baucus that the 
Interior Secretary before Bruce Babbitt said that he supported, 
and it is modest, I grant you, but it would have helped in the 
case of the Klamath to have things like independent peer 
review, and I wonder if this administration would consider 
supporting that and pushing it so that it is not blocked by 
people on the right and the left, because frankly, it was an 
odd coalition of folks on the right and the left that killed 
this last effort, and I am afraid if it is killed again, it may 
bring the silvery minnow into more focus, and I would love to 
get your support of the effort Senator Baucus and I are making.
    Mr. Raley. Senator, to the extent that the Secretary 
details me to work on that, I will give it my best. I know 
that, I have no doubt that the effort that you and Senator 
Baucus have made is going to get attention at the highest 
levels in the Department.
    Senator Smith. Mr. Myers, I wonder if you could give me 
your feelings about these issues, as the Solicitor to the 
Department.
    Mr. Myers. Well, Senator, I live in your neck of the woods, 
not quite in Oregon, but in Boise, and I have seen the same 
drought that your irrigators have experienced afflict the 
farmers and ranchers where I live, and I have seen the snow 
pack not appear this year. The hot weather is upon us. It is 
going to be a tremendously bad fire season. We need water.
    The good Lord has not chosen to provide it, and we need to 
figure out in some fashion how to deal with the conflicts that 
are arising between people who have used these lands for 
decades, for generations, and want to continue to do so, and 
the need to protect species, which the Congress has mandated is 
of utmost importance, through the Endangered Species Act.
    That is the conflict. Whether the Congress will have the 
will to make any amendments to the act, I can't say, but within 
our Department we will do what we can to support the irrigators 
and the species at the same time through the Bureau of 
Reclamation, through the Fish and Wildlife Service.
    For my part, obviously, I want to be involved, as 
litigation has ensued, so I am going to be participating in 
that, and in deciding whether we go forward in settlement or in 
litigation, as these cases arise.
    I know it is a fairly vague answer to your question, but I 
want you to know that I know what you are talking about I have 
seen it, and I have friends who are in the Klamath Basin, and 
so I appreciate you raising it.
    Senator Smith. Well, the Klamath Basin puts a human face on 
this government-made tragedy, and I grant you that the West is 
an arid place, and the Government has overcommitted, in the 
West, its resources to too many groups, but if you want to see 
human tragedy, go to Klamath County in Oregon, and you will see 
the worst kind of results of government policy, and we need the 
emergency support of the administration to help these folks get 
through this year, and we need some change, administratively or 
statutorily, to make sure this never happens again, because I 
cannot defend it. It is inexcusable, and I am determined to 
change it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, and let me thank all of 
the nominees for appearing and giving us testimony this 
morning, and the committee will undoubtedly be acting on your 
nomination at some early date. I do not know precisely when to 
advise you, but we appreciate you being here.
    That is the end of the hearing.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on June 20th.
    If I can be of further assistance, please let me know.
            Sincerely,
                                   William Gerry Myers III,
                                             Solicitor - Designate.
[Enclosures.]

          Response of Mr. Myers to Question From Senator Wyden

    Question. What projects do you hope to work on in this 
Administration that would showcase your ability to work out natural 
resource issues between people and groups that fundamentally disagree 
with one another?
    Answer. Problem solving is the essence of good lawyering. While I 
have not chosen any specific project to undertake, I have no doubt that 
I will regularly meet with persons and groups engaged in fundamental 
disagreements. I support alternative dispute resolution and it is my 
understanding that the Office of the Solicitor is currently testing ADR 
techniques. I will also bring to the position my personal experience 
working on committees and in groups whose memberships were 
intentionally diverse and at times combative.

         Responses of Mr. Myers to Questions From Senator Smith

    Question. For several years, I have been concerned about the Bureau 
of Reclamation's policy that seeks to deny water to companies with any 
foreign ownership, or U.S.-based subsidiaries of parent companies with 
foreign ownership, based on an administrative policy. Can you provide 
me with any statutory justification in the Reclamation Reform Act of 
1982 for this policy?
    Answer. I am informed that the current Bureau of Reclamation 
regulations do not deny irrigation water to foreign companies that hold 
subsidiaries incorporated under State or Federal law and which meet 
information reporting requirements of the Reclamation Reform Act.
    Question. Will you commit to review this policy, which is being 
used in an attempt to deny water to one of the largest employers in 
Southern Oregon, with an eye to ensuring that eligibility is afforded 
to project beneficiaries in accordance with the law, not with the 
desires of those Reclamation personnel who administer the program?
    Answer. If confirmed, I will undertake a review of the Bureau's 
policy to ensure compliance with applicable laws and regulations. 
Bureau employees, like all departmental employees, are bound by these 
laws and regulations. While I cannot prejudge the outcome of that 
review, I can state that policy must comport with these laws and 
regulations.
    Question. The Confederated Tribes of Coos, Lower Umpqua and Suislaw 
Indians are one of nine federally recognized tribes in the state of 
Oregon. As you are aware, there has been contention in recent years 
over the designation of certain tribally-owned lands as ``restored'' 
lands under Section 20 of the Indian Gaming Regulatory Act (IGRA). On 
September 29, 2000 the United States District Court for the District of 
Columbia rejected the federal interpretation of Section 20 of IGRA and 
remanded the case to the Department for further interpretation.
    To this point, I am unaware of any further action taken by the 
Department. In order to respond to inquiries I have received from 
constituents concerned about this case, please give me an update on the 
status of the Department's preparation of a final determination on this 
matter.
    Answer. I have been informed that this issue is undergoing staff 
review at the Department. Since the ``restored'' lands exception raises 
important national policy and legal issues, the final decision must 
await my confirmation and that of Neal McCaleb. Once confirmed, I will 
work with Mr. McCaleb to complete work on this issue as soon as 
possible.

        Response of Mr. Myers to Question From Senator Domenici

                            SANDIA MOUNTAIN

    Question. The Sandia Pueblo has a long standing claim to ownership 
of the Sandia Mountain near Albuquerque, New Mexico. This claim clouds 
title to the homes of over 40 families and jeopardizes the public's 
access to this recreational and federal wilderness area.
    This case has a long history with the Interior Department and at 
least two Solicitors have issued different opinions on the matter.
    Will you personally look into this important and long standing 
dispute and help facilitate a solution acceptable to all parties?
    Answer. Yes, I will. The Secretary has indicated that the next 
Solicitor will review the Solicitors' opinions on this issue and the 
related information, and will consider all available options for 
resolving this dispute in a way that addresses the concerns of the 
interested parties. If confirmed, I look forward to working with you 
and others from the New Mexico Congressional delegation to reach a 
mutually acceptable resolution of this important matter.
                                 ______
                                 
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on June 20th.
    If I can be of further assistance, please let me know.
            Sincerely,
                                    Patricia Lynn Scarlett,
 Assistant Secretary for Policy, Management and Budget - Designate.
[Enclosures.]

       Response of Ms. Scarlett to Question From Senator Campbell

    Question. The Department of Interior has 77,000 employees. The 
National Business Center (NBC) within the Department of Interior is 
headquartered in Denver, CO and employees about 500 people in my state. 
We have heard that the Department is developing a new program through 
the NBC that will greatly improve the Human Resource services to the 
DOI employees. According to a Booz-Allen Hamilton study this new 
program will save the Department $28.5 million over 2 years. This 
sounds like something that is to be encouraged. Do you have any 
comments?
    Answer. I am aware of the Department's efforts in pilot testing the 
Federal Human Resources Information System (FHRIS) and will look 
closely at this proposed system, as I support the goal of improving 
human resource services and reducing costs.

        Response of Ms. Scarlett to Question From Senator Wyden

    Question. What projects do you hope to work on in this 
Administration that would showcase your ability to work out natural 
resource issues between people and groups that fundamentally disagree 
with one another?
    Answer. Secretary Norton has articulated a ``4C's'' vision for the 
Department of the Interior in which conservation goals will be pursued 
through emphasis on collaboration, communication, and consultation. I 
hope to work with Secretary Norton to showcase these collaborative 
approaches in two ways: 1) building upon existing programs within the 
Department that already embody these collaborative approaches to 
addressing resource management challenges; and 2) exploring 
opportunities to create new partnerships, especially on issues 
regarding grazing, wildlife preservation, habitat restoration, and 
water management.
    Should I be confirmed, some possible specific opportunities, which 
I have not yet had an opportunity to explore with Secretary Norton and 
other relevant DOI staff but which represent possible models include:

  <bullet> Exploring use of forums like the Bureau of Land Management's 
        Resource Advisory Councils to provide contexts for 
        communication among ranchers, environmental organizations, 
        local and other government agencies (including the Bureau of 
        Land Management), potentially expanding the advisory and 
        decision making roles of these councils as a forum for finding 
        common ground among participating individuals and groups. Prior 
        to my nomination for the position of Assistant Secretary of 
        Policy, Management, and Budget at the Department of the 
        Interior, I had been involved in some discussions among 
        ranchers and environmentalists about possibilities for 
        developing cooperative ranch land and riparian improvement 
        programs that would focus on meeting both economic and 
        environmental goals of participants. The RACs provide a 
        possible context in which to carry forward this kind of 
        discussion, though I have not had an opportunity to discuss 
        with Secretary Norton and other relevant Department of the 
        Interior staff whether or how the RACs, or some other 
        institution, might be used.
  <bullet> Developing working relationships with the many existing (and 
        emerging) land trusts engaged in stewardship and resource 
        management, particularly at the rural/urban landscape 
        interface. Many of these trusts have already developed 
        collaborative and cooperative stewardship and resource 
        management programs that can be enhanced through increased 
        cooperation with the Department of the Interior.
  <bullet> Working through programs like the Partners for Fish and 
        Wildlife Program, which provides a cooperative context for 
        engaging in stream restoration, grazing land improvements, 
        riparian enhancement, and native grass seeding. To date, over 
        1,000 farmers and ranchers in Montana have participated in 
        these voluntary programs, with a uniformly positive response 
        and a waiting list for additional participation.
  <bullet> Exploring opportunities for using programs such as the Water 
        Conservation Field Services and Bridging the Headgates 
        partnership, operated by the Bureau of Reclamation. 
        Partnerships modeled on this approach encourage water districts 
        and other water users to develop and implement efficient water 
        management practices. Such partnerships involve flexible 
        options tailored to local needs and designed to complement 
        other federal, state, tribal, and local conservation efforts. 
        The Bridging the Headgate partnership joins water-district and 
        on-farm efficiency measures through five federal and nonprofit 
        partners. The partnership provides a voluntary and cooperative 
        context in which individuals and groups with often deeply 
        divided perspectives can work to address common problems.

    As noted earlier, these ideas present potential models for bringing 
together those holding conflicting interests. If confirmed I look 
forward to working with Secretary Norton, the Administration, the staff 
of the Department of the Interior, and members of Congress in shaping 
and implementing cooperative approaches to land and resource 
management. If confirmed, I look forward to further discussing these 
and other ideas with you.
                                 ______
                                 
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on June 20th.
    If I can be of further assistance, please let me know.
            Sincerely,
                                     Bennett William Raley,
             Assistant Secretary for Water and Science - Designate.
[Enclosures.]

         Responses of Mr. Raley to Questions From Senator Wyden

    Question 1. What projects do you hope to work on in this 
Administration that would showcase your ability to work out natural 
resource issues between people and groups that fundamentally disagree 
with one another?
    Answer. Although the exact details of my responsibilities have not 
been determined by the Secretary of the Interior, I would hope to have 
a role in establishing a process which is open and accessible to all 
stakeholders in the Klamath basin and other areas where tension exists 
between water use, attainment of the goals of the Endangered Species 
Act, and the Secretary's trust responsibilities to American Indians. I 
would also like to play a role in the Department's implementation of 
CALFED. I also believe that attention of the Assistant Secretary to 
Indian water rights settlements throughout the west would be 
appropriate.
    Question 2. We have a serious problem in the Klamath Basin. It is a 
drought year which means water is low but emotions are running high. 
There is not enough water to go around to all the farmers who 
traditionally use it. On top of that, we have federal agencies that are 
competing with each other and the farmers for that same water. What 
would you propose as a long term solution to the serious issues in the 
Klamath Basin that would make real progress towards addressing the 
needs of the agricultural community and the environment?
    Answer. I anticipate that long-term solutions for the basin would 
include such things as increasing the water supply and/or yield of the 
Klamath Project while improving water quality and making water 
conservation and efficiency improvements, consistent with the 
Secretary's trust responsibility to Indians and the protection of fish 
and wildlife; developing additional ground water supplies; and 
identifying innovative uses of existing water resources or market based 
approaches to meet growing water needs.
    Question 3. How would you go about finding or forming that long 
term solution? What projects do you hope to work on in this 
Administration that would showcase your ability to work out natural 
resource issues between people and groups that fundamentally disagree 
with one another?
    Answer. Many groups and processes already exist in the basin which 
are addressing various aspects of the basin's resource issues. I look 
forward to working with and through these groups and processes as they 
offer a foundation to build from. I recognize that the federal 
government needs to provide constructive leadership in cooperation and 
consultation with all affected parties, and I will do so.

       Responses of Mr. Raley to Questions From Senator Landrieu

    Question 1. The Interior Department and other federal agencies 
should make resources decisions that are based on the best science 
available. Do you agree that the scientific goals of the Survey should 
include a mix of basic and applied science that addresses both the 
needs of the Department and the Nation's long term interests?
    Answer. Yes.
    Question 2. The National Academy of Sciences has just released a 
recommended water resources research agenda for the next century 
(Envisioning the Agenda for Water Resources Research in the Twenty-
first Century). Do you think the USGS and other federal agencies have a 
role to play in implementing such a research agenda? What should that 
role be?
    Answer. Although I have not had the opportunity to review the NAS 
recommendations or the budget resources that will be available to the 
USGS, I believe the USGS should continue to provide water resources 
research in cooperation with partners in federal, state, and local 
government, and in the private sector.
    Question 3. The so-called ``dead zone'' or the hypoxia in the Gulf 
of Mexico may be caused by nutrients that are carried from throughout 
the Mississippi River basin. As Assistant Secretary will you continue 
to support scientific research into the causes of and potential 
solutions for hypoxia in the Gulf?
    Answer. Yes, within budget constraints.
    Question 4. Last year Congress re-authorized the Water Resources 
Research Act and the state water resources research institutes program. 
The institutes provide important support to the states in their long-
term water planning, policy development, and resources management 
efforts and serve as a nationwide information transfer network that 
provides an efficient and effective method to meet diverse water 
resource needs in different parts of the country. Are you familiar with 
the state water resources research institute program?
    Answer. Yes, in my 18 years of practice of water and environmental 
law in Colorado, I became familiar with the work of the Colorado State 
University Water Resources Research Institute.
    Question 5. What are your thoughts on the potential for integrating 
research and technology transfer activities of the institutes into the 
water resources activities of the Department? As Assistant Secretary, 
how would you propose to improve utilization of the state water 
resources research institutes?
    Answer. I am informed that the research and technology transfer 
activities of the State Water Resources Research Institutes have been 
well integrated into the water science activities of the Department. 
Through the Water Resources Research Act grant program that USGS 
administers, the Department has had an opportunity to partner with the 
states on many research collaboration and technology transfer 
opportunities in the hydrologic sciences.
    If confirmed, I look forward to working with all of the 
Department's partners, including the Institutes.

         Responses of Mr. Raley to Questions From Senator Smith

    Question 1. Water districts that receive water from the federal 
Umatilla project have been trying to get a resolution of their district 
boundaries for over a decade. Failure by the Department, which was 
authorized to make these boundary adjustments in 1988, is holding up 
efforts to authorize Phase III of the Umatilla Enhancement Project. Can 
you give me a commitment to make resolution of these boundaries a high 
priority?
    Answer. Yes.
    Question 2. Will you commit to tasking a member of your staff, or 
from Reclamation's Washington office, to oversee the progress of these 
boundary adjustments?
    Answer. I will see to it that the Commissioner of the Bureau of 
Reclamation and the responsible regional director ensure that progress 
is made in resolving these boundary adjustment issues.
    Question 3. I have asked my staff to meet with the affected water 
districts and Reclamation staff to try to identify a realistic 
timetable for completion of the boundary adjustments for the respective 
districts. Will the Department commit to providing the necessary 
personnel, with decision-making authority, to such a meeting?
    Answer. Yes.
    Question 4. The water users in the Klamath Basin continue to face 
economic ruin. Will the Administration actively fight for the funds in 
the supplemental appropriations bill?
    Answer. If confirmed, I will actively support the Administration's 
request for funds in the supplemental appropriations bill.
    Question 5. Will you ensure that all the studies that are the basis 
of the current biological opinions for the Klamath Project receive 
independent scientific review?
    Answer. I am advised that in order to address the concerns 
expressed about the scientific basis for management decisions in the 
Klamath Basin, the Secretary will direct that the science upon which 
the FWS Biological Opinion is based, and which exists in the 
Administrative Record, be subject to an independent scientific review. 
Such a review is to be conducted by an objective outside scientific 
body that is widely recognized and has a disciplined scientific focus. 
In addition, plans already exist to subject the forthcoming DOI 
commissioned study by Professor Hardy, from Utah State University, to 
independent peer review.
    I am further advised that with regard to Project Operations for 
coming years, when the Bureau of Reclamation develops future plans to 
meet its multiple obligations and other biological assessments are 
developed in consultation with FWS on such plans, FWS will fully review 
the existing scientific data and seek appropriate public comment and 
peer review.

       Responses of Mr. Raley to Questions From Senator Feinstein

    Question 1. What is your position on CALFED?
    Answer. I have the highest regard for the work of my predecessors, 
who were instrumental in forging the original CALFED agreement. Both 
Secretary Norton and I are supportive of the fundamental goals of 
CALFED. In fact, it may serve as a model of federal cooperation with 
state and local governments, and water users and environmental 
stakeholders.
    Question 2. What role do you see for the Department of the Interior 
in implementing CALFED?
    Answer. I believe a successful implementation of CALFED will 
require substantial participation by the Department of the Interior.

          Response of Mr. Raley to Question From Senator Craig

    Question. I have been an advocate for change of the Federal Energy 
Regulatory Commission's hydroelectric licensing process. Although I 
believe there are many things wrong with the current process, I have 
decided to focus on federal resource agency participation in that 
process and have introduced legislation that addresses my concerns. Are 
you familiar with that legislation (S. 71; also contained as Subtitle C 
of Title VII of S. 389--the ``National Energy Security Act of 2001''), 
and do you support the changes that the legislation will bring about?
    Please explain fully what role you will have in the licensing of 
non-federal hydroelectric development of our nation's waterways.
    Answer. I am not familiar with the details of S. 71. I know that 
the issue of hydroelectric licensing is an important one to both the 
Federal Energy Regulatory Commission (FERC) and to the Department of 
the Interior. I understand that the Department of the Interior has 
substantial work under-way to streamline the hydroelectric process.
    If confirmed, I will have oversight authority over the Bureau of 
Reclamation and the U.S. Geological Survey. There are instances where 
private hydropower is licensed through FERC at a Bureau of Reclamation 
dam or project. In those instances, it is important to ensure that the 
license is compatible with the project purposes. Reclamation has that 
responsibility.


</pre></body></html>
